LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 21, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

RICHARD M. CAMACHO V. UNITED STATES

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
Petitioner, on August 21, 2019, I caused service to be made pursuant to Rule 29 on
counsel for the Respondent:
RESPONDENT:
The Honorable Noel Francisco
Solicitor General
United States Department of Justice
Room 5614
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
supremectbriefs@usdoj.gov
This service was effected by depositing three copies of the Petition for Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

